U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Oscar Guevara Salamanca v. United States, No. 20-6794

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 31,
2020. The government’s response is now due, after one extension, on March 31, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 30, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6794
SALAMANCA, OSCAR GUEVARA
USA

ERIN PHILLIPPI RUST
FEDERAL DEFENDER SERVICES
835 GEORGIA AVE.
STE. 600
CHATTANOOGA, TN 37402
423-756-4349
ERIN_RUST@FD.ORG

